No. 19A_______
In the
SUPREME COURT OF THE UNITED STATES
October Term 2019
___________
JOSLYN MANUFACTURING COMPANY, LLC,
Applicant,
v.
VALBRUNA SLATER STEEL CORPORATION, ET AL.,
Respondents.
___________
Application for an Extension of Time Within Which
to File a Petition for a Writ of Certiorari to the
United States Court of Appeals for the Seventh Circuit
___________
APPLICATION TO THE HONORABLE
JUSTICE BRETT M. KAVANAUGH
AS CIRCUIT JUSTICE
___________
CARTER G. PHILLIPS*
TIMOTHY K. WEBSTER
JENNIFER J. CLARK
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
cphillips@sidley.com
Counsel for Applicant Joslyn Manufacturing Company, LLC
November 25, 2019
* Counsel of Record

PARTIES TO THE PROCEEDING
Petitioner (defendant-appellant, cross-appellee below) is Joslyn
Manufacturing Company, LLC. Respondents (plaintiffs-appellees, cross-appellants
below) are Valbruna Slater Steel Corporation and Fort Wayne Steel Corporation.

i

STATEMENT PURSUANT TO RULE 29.6
Pursuant to Supreme Court Rule 29.6, Applicant Joslyn Manufacturing
Company, LLC states as follows: Joslyn Company, a Delaware Limited Liability
Company, owns 100% of Joslyn Manufacturing Company, LLC. Danaher
Corporation, a publicly held company, is the ultimate parent company.

ii

APPLICATION FOR EXTENSION OF TIME
Pursuant to this Court’s Rules 13.5, 22, and 30.3, Applicant Joslyn
Manufacturing Company, LLC (“Joslyn”) hereby requests a 45-day extension of
time, to and including January 20, 2020, within which to petition for a writ of
certiorari in this case. Absent an extension, the petition would be due on December
5, 2019. This application is made at least 10 days before that date.
JUDGMENT FOR WHICH REVIEW IS SOUGHT
The judgment sought to be reviewed is the decision of the United States
Court of Appeals for the Seventh Circuit in Valbruna Slater Steel Corp. v. Joslyn
Manufacturing Co., 934 F.3d 553, (7th Cir. 2019) (attached hereto as Exhibit A).
JURISDICTION
The Seventh Circuit issued its decision on August 8, 2019. On September 6,
2019, the court denied Joslyn’s petition for panel rehearing and rehearing en banc
(unreported order attached as Exhibit B). This Court’s jurisdiction would be
invoked under 28 U.S.C. § 1254(1).
REASONS JUSTIFYING AN EXTENSION OF TIME
1.

This case concerns the proper interpretation of the term “remediation”

for purposes of the statute of limitations under the Comprehensive Environmental
Response, Compensation and Liability Act (CERCLA). For CERCLA cost-recovery
claims, “[t]he applicable limitations period … depends on whether, and when,
‘removal’ or ‘remediation’ occurred. See 42 U.S.C § 9613(g)(2)(A)–(B).” Valbruna
Slater Steel Corp. v. Joslyn Mfg. Co., 934 F.3d 553, 563–64 (7th Cir. 2019). “For
removal actions, the time to file suit expires three years after the removal is

complete,” whereas “[f]or remedial action … the time expires six years after the
remedial action’s initiation.” Id. at 563. CERCLA, in turn, defines a removal as
“the cleanup or removal of released hazardous substances from the environment,”
and remedial actions as “those actions consistent with permanent remedy taken
instead of or in addition to removal actions,” including, but not limited to, “such
actions at the location of the release as storage, confinement, perimeter protection
using dikes, trenches, or ditches, [and] clay cover,” among other actions. 42 U.S.C.
§ 9601(23)–(24). “[R]emoval generally ‘refers to a short-term action taken to halt
risks posed by hazardous wastes immediately,’” whereas “[r]emedial actions ‘are
longer term, more permanent responses.’” Valbruna Slater Steel Corp., 934 F.3d at
564.
2.

Joslyn Manufacturing and Supply Company, a steel manufacturer,

operated the site at issue from 1928 to 1981, resulting in pollution of soil, sludge
and groundwater. Slater Steels Corporation (“Slater”) purchased the site in 1981
and undertook lengthy cleanup efforts. From 1981 to 1987, Slater excavated sludge
and contaminated soil from an impoundment area and a waste pile on the site.
Then, in 1991, Slater installed a permanent concrete cap on the excavated
impoundment area and implemented a ground-water detection program. In 2000,
Slater sued Joslyn to recover cleanup costs in state court under Indiana’s
Environmental Legal Actions statute (ELA). Slater went bankrupt while the suit
was pending, and Valbruna Slater Steel (“Valbruna”) acquired the site. Valbruna
continued with cleanup efforts as required under its purchase agreement and in
2010 sued Joslyn in federal court for cost recovery under CERLCA and ELA. Joslyn
2

argued that Valbruna’s claims were precluded by the prior state-court action and
that the current action was time-barred because it was commenced more than six
years after Slater initiated the remedial actions to excavate sludge and
contaminated soil and to permanently cap the impoundment area.
3.

The district court determined that Valbruna’s ELA claim was barred

on claim-preclusion grounds based on the prior state-court action, but that the
CERCLA claim was not precluded. With regard to the statute of limitations, the
district court ruled that Slater’s cleanup was a “removal,” not “remediation” and
therefore the statute of limitations did not begin to run until Valbruna initiated its
remedial cleanup in 2005. The court reduced Valbruna’s costs by $500,000, finding
that amount was already incorporated into Valbruna’s purchase price and thus
would constitute a double recovery. Moreover, the district court apportioned 25% of
the ongoing costs to Valbruna.
4.

Joslyn appealed the rulings on the statute of limitations and on res

judicata as to the CERLCA claim, and Valbruna cross-appealed the ruling that its
ELA claim was precluded, the reduction in costs, and the apportionment of liability.
The Seventh Circuit affirmed across the board. As relevant here, the Seventh
Circuit agreed with the district court that the claims were timely because Slater’s
cleanup efforts were removals, not remedial actions. It held that the nearly-eightyear-long excavation effort was a removal because it “was a temporary solution,
covering only a part of the plant’s pollution causes” and was performed “in response
to the threat the waste posed to nearby water sources.” 934 F.3d at 564. As to the
cement cap, the Seventh Circuit held that even though “the fix may have been
3

permanent,” it did not qualify as remediation because it “covered just one area” and
was not meant to “substantially resolve the bulk of the site’s ongoing pollution
problems.” Id. at 565. The Seventh Circuit noted that it had no need to address the
district court’s alternative ruling that “even if the earlier cleanups were remedial,
they were separate ‘operable units’ from Valbruna’s current cleanup,” and therefore
subject to separate statutes of limitations. Id. at 565 n.4. The court acknowledged,
however, that “other circuit courts have rejected the idea that there can be multiple
removal or remediation actions at a given site.” Id.
5.

The Seventh Circuit’s decision warrants this Court’s review, because it

conflicts with multiple other circuits’ interpretation of what constitutes a “remedial”
action under CERCLA. The Seventh Circuit held that even though the concrete cap
was permanent, it did not count as a remedial action because it “covered just one
area,” rather than the entire site. Id. at 565. Merely because the cap provided a
permanent fix for only part of the affected area, however, does not deprive it of its
remedial nature. Other courts have recognized that multi-phase cleanup actions
qualify as a single remedial action. “[C]ourts have generally held that there can be
only one removal and one remedial action per facility, regardless of the number of
phases in which the clean-up occurs.” Yankee Gas Servs. Co. v. UGI Utils., Inc., 616
F. Supp. 2d 228, 270 (D. Conn. 2009) (emphasis added). As the Second Circuit has
explained, “[v]irtually every court that has considered this issue has agreed” that
“there can only be one remedial action at any given site.” N.Y. State Elec. & Gas
Corp. v. FirstEnergy Corp., 766 F.3d 212, 235–36 (2d Cir. 2014) (citing, inter alia,
Colorado v. Sunoco, Inc., 337 F.3d 1233, 1241 (10th Cir. 2003) and Kelley v. E.I.
4

DuPont de Nemours & Co., 17 F.3d 836, 843 (6th Cir. 1994) (holding that all
removal activity should be considered part of one removal action because “[i]t is
simply inconsistent with the[ ] ‘essential purposes’ [of CERCLA] to require suit on
each arguably independent removal activity” (citation omitted))). The Seventh
Circuit recognized that “other circuit courts have rejected the idea that there can be
multiple removal or remediation actions at a given site,” 934 F.3d at 565 n.4, but in
refusing to find the cement cap remedial because it offered a permanent fix for only
part of the site, the Seventh Circuit would require separate treatment of each phase
of a multi-phase cleanup, presumably with only the final phase qualifying as a
remedial action. This approach conflicts with that of other circuits and would
expand the applicable limitations period significantly beyond what Congress
intended. Joslyn therefore intends to ask this Court to grant a petition for a writ of
certiorari to correct the decision below and resolve the conflict among the circuits.
6.

There is good cause for a 45-day extension of time to file a petition for

writ of certiorari in this case. An extension is warranted to allow sufficient time in
light of the upcoming holidays for undersigned counsel, who was very recently
retained, to review the record and address the legal issues presented by this case.
7.

The extension of time is also necessary because of the press of other

client business. For example, undersigned counsel of record is responsible for
presenting oral argument before the Federal Circuit in Netlist, Inc. v. ITC, No. 181676, on December 5, 2019. Undersigned counsel of record is also responsible for
preparing the Brief for Intervenor Supporting Respondent in NASDAQ Stock
Market, LLC v. SEC, No. 18-1324, in the D.C. Circuit due on December 2, 2019; a
5

Brief in Opposition to Plaintiff’s Motion for Entry of Judgment in Drummond Coal
Sales, Inc. v. Norfolk Southern Railway, No. 7:16-cv-489 in the Western District of
Virginia due on December 6, 2019; a Petition for a Writ of Certiorari in Connecticut
Fine Wine & Spirits, LLC v. Seagull due in this Court on December 6, 2019; a
Supplemental Response Brief in Carlton & Harris Chiropractic, Inc. v. PDR
Network, LLC, No. 16-2185, due in the Fourth Circuit on January 13, 2020; and
Appellant’s Reply Brief in U.S. House of Representatives v. Mnuchin, No. 19-5176
due in the D.C. Circuit on January 13, 2020.
CONCLUSION
For the foregoing reasons, Joslyn respectfully requests that this Court grant
a 45-day extension of time, to and including January 20, 2020, within which to file a
petition for a writ of certiorari.
Dated: November 25, 2019

Respectfully submitted,
/s/ _Carter G. Phillips_______
CARTER G. PHILLIPS*
TIMOTHY K. WEBSTER
JENNIFER J. CLARK
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
cphillips@sidley.com
Counsel for Applicant Joslyn
Manufacturing Company, LLC
* Counsel of Record

6

